                              NATIONAL SCIENCE FOUNDATION
                                     4201 Wilson Boulevard
                                   ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL




MEMORANDUM

DATE:                  July 30,2009

TO:                    Mary F. Santonastasso, Division Director
                       Division of Institutional and Award Support (BFA/DIAS)

                       Karen Tiplady, Division Director
                       Division of Grants and Agreement (BFA/DGA)

FROM:                  Michael R. Kuklok
                       Senior Audit Manager

SUBJECT:              Audit of Purdue University Effort Reporting System

         Attached is the final report on the audit of the payroll distribution and effort reporting
system used by Purdue University (Purdue) to support salary and wages charged to NSF grants.
The University's comments to the draft report have been summarized after the recommendations
for each audit finding and the auditor's response has been provided to these comments. The full
text of the University's comments is included as an Appendix to the audit report.

        The audit found that Purdue generally has a well established and sound Federal grants
management system with the exception of internal controls over PIS charging proposal writing
and graduate students charging teaching activities as direct costs to NSF grants, and lack of
periodic independent internal evaluation of the effort reporting system. Without adequate
training of individuals certifying their labor efforts, and periodic independent evaluation of the
system, Purdue has less assurance that the salaries and wages charged to NSF's sponsored
projects are allowable, allocable and reasonable.

        We consider Purdue's internal control weaknesses identified in the audit findings to be
significant. Accordingly, we request that your office work with the University and the cognizant
audit agency, the Department of Health and Human Services (DHHS), to develop a written
Corrective Action Plan detailing specific actions taken andlor planned to address each audit
recommendation. Milestone dates should be provided for corrective actions not yet completed.

        To help ensure the recommendations are resolved within six months of issuance of the
audit report pursuant to Ofice of Management and Budget Circular A-50, please coordinate the
development of the Corrective Action Plan with our office during the resolution period. Each
audit recommendation should not be closed until NSF, in coordination with DHHS, determines
that Purdue has adequately addressed the recommendation and proposed corrective actions have
been satisfactorily implemented. Please note that we have sent a copy of the audit report under
separate cover to Jon D. Crowder of DHHS-OIG.

      If you have any questions, please feel free to call me at 703-292-4975 or Kwame Fosu at
703-292-4328.

Enclosure

cc:    Charles Zeigler, Special Assistant, BFA/DIAS
       Thomas Cooley, Director and Chief Financial Officer, BFAfOAD
       Alexander Wynnyk, Branch Chief, BFA/DIAS
Audit of Effort Reporting System

      Purdue University
    West Lafayette, Indiana


    National Science Foundation
    Office of Inspector General


           July 30, 2009
           OIG 09-1-013
This page intentionally left blank.
                                 Executive Summary


This audit report provides the results of our review of the effort reporting system used by
Purdue University (Purdue) to support salaries and wages charged to National Science
Foundation (NSF) awards. In fiscal year (FY) 2007, Purdue had total Federal research
and development grant expenditures of approximately $199 million, of which $40 million
were funded by NSF. Of this amount, over $14.8 million were for labor costs directly
charged to NSF awards. This audit is one of a series of Office of Inspector General
(OIG) reviews of the labor effort distribution systems being conducted at NSF’s top-
funded universities to assess the adequacy of internal controls to ensure salary and wage
costs claimed on NSF grants are properly managed, accounted for, and monitored.

Our review disclosed that Purdue generally had a well established and sound Federal
grants management program. Our review of 30 sampled employees, with total FY 2007
NSF salary charges of $850,711, found that the effort reporting system generally supports
salary costs charged to NSF awards.

However, the audit identified instances of mischarges to NSF grants for activities that did
not benefit the grants. Specifically, of our 30 sampled employees, 3 Principal
Investigators (PIs) charged proposal writing, and 2 graduate students charged teaching
activities as direct costs to NSF grants in violation of both Federal and University policy.
Consequently, NSF was overcharged $12,630 for these activities. Although the
mischarged amounts for the sample are not material individually (less than 1 percent of
the total labor charges in 2007) it constitutes an internal control weakness that could
result in more substantive mischarges for the remaining $14 million in labor charges to
NSF awards in 2007, as well as the labor portion of the $159 million of other Federal
awards.

These internal control weaknesses occurred, in part, due to a lack of adequate training of
individuals certifying their labor efforts, with respect to proposal writing and teaching
activities, and the lack of a periodic independent internal evaluation of the effort
reporting system. Specifically, training on the effort reporting process, including cost
allowability and allocability, was offered to University business office staff who are
charged with providing guidance in effort reporting to the PIs. However, there was no
mandatory requirement for PIs, who certify the labor efforts, to attend. In addition,
management believed the A-133 audit and other reviews by the costing office provided
the OMB circular A-21 required independent evaluation of the labor effort system.
However, these reviews only addressed limited aspects of the system.

We also identified concerns relating to the new online system developed and
implemented by Purdue during 2007. Specifically, while we consider Purdue’s effort
report certification process one of the better ones audited to date, we noted that Purdue



                                             i
had not developed written policies and procedures for the new system capability to
ensure the continued timeliness of the certification process.

We made recommendations to strengthen the University’s internal controls over labor
effort reporting to include: 1) improving training for all personnel involved in the effort
reporting process, particularly as it relates to proposal writing and teaching; 2)
establishing an independent internal evaluation process; and, 3) developing written
policies and procedures for new online capabilities over the timely certification of effort
reports. Finally, we recommended Purdue resolve any outstanding questioned costs
identified in the report.




                                            ii
                          Table of Contents

EXECUTIVE SUMMARY………………………………………………………………i


INTRODUCTION

  Background……………………………………………………………………………1
  Objectives, Scope, and Methodology…………………………………………………2

FINDING AND RECOMMENDATIONS

  1. Internal Controls over Purdue University’s Labor Effort Charging
     Can be Strengthened………………………………………………………………5

  2. Additional Concerns for the New On-line System………………………………..8


APPENDIX

  Appendix A:   Purdue Response to Draft Audit Report…………………………10


ACRONYMS

     NSF        National Science Foundation
     OIG        Office of Inspector General
     OMB        U.S. Office of Management and Budget
     PAR        Personnel Activity Report
     PI         Principal Investigator
     SAP        Systems, Applications and Products
     SPS        Sponsored Programs Services
                                 INTRODUCTION

BACKGROUND

Approximately one third of the National Science Foundation (NSF) award funds are
provided for salary and wages, amounting to about $1.3 billion annually at universities.
Also, in recent years, there have been several civil settlements involving overcharges of
labor costs to Federal grants, amounting to millions of dollars at several major
universities, including some funded by NSF. Because of these legal actions and the
material amounts of labor costs paid from NSF awards, the Office of Inspector General
(OIG) is undertaking a series of reviews of the labor effort distribution systems at NSF’s
top-funded universities in order to assess the adequacy of internal controls to ensure
salary and wage costs claimed on NSF grants are properly managed, accounted for, and
monitored. This audit, involving Purdue University, is one of the planned reviews of
such labor effort distribution systems.

Purdue University is a coeducational, state-assisted system in Indiana. Founded in 1869,
the University is one of the nation’s leading research institutions with a reputation for
excellent and affordable education. Building upon historical strengths in engineering
and agriculture, Purdue University currently offers a large number of courses in more
than 400 undergraduate majors and specializations. For the fall 2007, the university had
a total enrollment exceeding 70,000 students.

The University is a major research institution and derives the majority of its funding from
sponsored research funding, student tuition, and state assistance. For FY 2007, the
University received $301 million in sponsored awards which included approximately
$199 million, or 66 percent, in research and development grants from the Federal
government. Approximately $40 million, or 20 percent, of the Federally-sponsored
research and development project awards were provided by NSF.

Sponsored Program Services (SPS) is a partnership which combines staff responsible to
the Vice President for Business Services and Assistant Treasurer and also the Vice
President for Research. SPS is responsible for the management and financial
administration of grants. The Costing Office which reports to the Office of the
Comptroller is responsible for compiling, generating, and maintaining effort reports, and
charged with implementing appropriate effort reporting training programs.

Business managers within academic departments assist SPS with the management and
oversight of sponsored projects to ensure compliance with Federal and University
policies and procedures. They typically assist and advise faculty members on Federal
grants management and are responsible for ensuring that award accounts and budgets are
created accurately in the University’s financial system, award expenditures are monitored
on a monthly basis, and charges to Federal awards are appropriate. Principal
Investigators (PIs) have primary responsibility for all aspects of Federal grants including
approval of all charges and ensuring that research is conducted in accordance with award
terms and conditions.


                                            1
Objectives, Scope, and Methodology

Audit Objectives. Our audit objectives were to: (a) evaluate whether Purdue internal
controls are adequate to properly manage, account for, monitor, and report salary and
wage costs on NSF grants in accordance with the U.S. Office of Management and Budget
(OMB) and NSF grant requirements and (b) determine if salaries and wages charged to
NSF awards are allowable, allocable, and reasonable in accordance with Federal cost
principles and NSF award terms and conditions.

Scope and Methodology. The audit focused on Purdue’s effort reporting system and
accordingly reviewed internal controls for ensuring that labor costs charged to NSF (i)
were actually incurred, (ii) benefited NSF awards, (iii) were accurately and timely
recorded and charged to NSF, and (iv) were for allowable and allocable-type activities as
required by Federal and NSF requirements. In addition, we evaluated if the level of PI
effort pledged in grant proposal and award documents was actually contributed by the
faculty member to accomplish award objectives.

To address each of the control objectives, the NSF OIG engaged a statistician to provide
expert advice in selecting a statistical sample of employee salary records for testing. The
use of statistical tools and methodology will enable projecting our audit results to the
entire population of universities to be included in the planned reviews of payroll
distribution systems nationwide. However, due to the small statistical sample size of 30
employees tested, we are not able to make any projections to the total Purdue population
of labor costs charged to NSF grants. Specifically, the FY 2007 salary and wage costs for
the 30 sample employees tested amounted to $850,711 and were supported by 103 effort
reports. Our statistical sample was derived from a total population of 1,165 Purdue
employees, who charged $13.5 million of salaries to NSF grants during FY 2007. This
population excluded (a) any employee with total salary costs of $100 or less and (b) all
salary charges for undergraduate students. These amounts were excluded because of
their small dollar value and the difficulty in locating undergraduate students for personal
interviews.

We interviewed key University officials and reviewed the organization structure and
written policies and procedures to assess the “attitude” or “tone at the top” toward grants
management and compliance in general as it affects effort reporting.

We compared Purdue’s policies and procedures to Federal and NSF requirements for
allocating labor costs to Federal awards and interviewed Purdue personnel to gain an
understanding of the controls in place to ensure salary and wages charged to NSF awards
were reasonable and allowable. For each statistically selected salary record, we obtained
the following documentation to determine whether labor costs Purdue charged NSF
awards met the control objectives:




                                            2
       •   Effort reports documenting 100 percent of each employee’s compensation
           allocated to sponsored and non-sponsored projects for each reporting period.

       •   Appointment letters or other documents supporting the approved annual salary
           for employees.

       •   Payroll Charge File System reports detailing the actual salary and wages
           charged to sponsored projects and other activities for each employee during
           each reporting period.

       •   Award documents to determine whether a grant had any terms and conditions
           that would affect allowable labor charges to the award.

To ensure that salary and wage costs charged to NSF awards were incurred and benefited
NSF awards, we corroborated the information on the effort reports by interviewing the 30
sampled employees. We inquired whether (a) the labor charges documented were
actually incurred on projects and activities, (b) the approximate percentage of effort
actually worked on each sponsored project and/or activity was reasonably consistent with
NSF labor charges, and (c) the type of work performed on NSF projects was generally
consistent with the scope of the awards. In addition, we interviewed administrative
officials in academic departments of the sampled employees to determine how they met
the Federal and University certification requirement on verifying effort reports to ensure
the work was actually performed as shown on the reports. We also discussed with
department administrative officials their procedures for processing and monitoring
employee salary charges to Federal grants. Additionally, we interviewed selected PIs to
determine the number of projects and personnel they were responsible for and their
processes for verifying effort reports.

To confirm that faculty effort pledged in grant proposals was actually contributed to
accomplish grant objectives, we reviewed processes for reporting and tracking PI effort
and whether the associated salary costs were properly included in the organized research
base for computation of the University’s indirect cost rate. We reviewed award
documents for all Federal grants that a faculty member worked on during FY 2007 to
determine the effort pledged on each project and compared this proposed effort to the
approximate percentage of actual effort worked on the project. In addition, we
determined whether and how Purdue tracked and documented PI effort on sponsored
projects when no faculty salary support was requested or reimbursed by the Federal
Government.

To determine whether labor costs were accurately recorded and charged to NSF, we
compared the amounts in appointment letters or other documentation supporting salaries
and wages paid to the amounts recorded in the Payroll Charge File for each individual in
our selected sample. We recalculated salary and wage costs charged to NSF projects by
using the salary shown on supporting documentation and apportioning it by the period of
time and percent of effort represented on the effort reports. We also reviewed labor



                                            3
transactions to determine whether Purdue followed Federal, NSF, and University
requirements on charging labor costs to NSF projects.

We determined whether Purdue officials certified effort reports in a timely manner by
comparing the date the effort reporting period ended to the date the reports were certified.
Timeliness was based on Purdue’s established internal policy requiring that effort reports
must be returned to the Costing Office within 30 days of the completion of the report
period.

Finally, we reviewed prior audit reports on Purdue’s Federal grants management program
performed by OMB Circular A-133 auditors and the University’s internal auditors to
determine whether there were any audit findings and recommendations on labor effort
reporting. Specifically, we interviewed cognizant Internal Audit staff and reviewed the
working papers, as needed, to gain an understanding of the scope and procedures used in
any audits of Purdue’s payroll distribution reporting system and/or University
management of labor costs charged to Federal projects. We met with Purdue’s A-133
auditors to discuss their overall audit scope and procedures used for reviewing salaries
and wages charged to Federal awards and their review of the overall labor effort reporting
system. Accordingly, we reviewed the most current A-133 audit working papers
available during our site visit to ascertain the actual audit scope and procedures used by
the auditors in order to (i) preclude any duplicative audit work and (ii) to determine the
specific work performed on the labor effort reporting system.

Our onsite audit work at the Purdue campus was performed during two 2-week periods in
April-May 2008 and in October 2008. The remainder of the audit work was completed
through phone interviews, emails, and documentation requests through April 2009. We
conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.




                                             4
                  FINDINGS AND RECOMMENDATIONS

1. Internal Controls over Purdue University’s Labor Effort Charging Can be
Strengthened

Federal and University Requirements for Labor Effort Reporting

OMB Circular A-21, Cost Principles for Educational Institutions, section J.38, states that
proposal preparation effort should be treated as F&A (indirect) costs if that is the
established practice of the institution.       In addition, sections C.2, C.4 and D.2 of
Appendix A of the Circular require that for a cost, such as teaching, to be an allowable
direct cost to a sponsored agreement, it must benefit the sponsored agreement and be
specifically identifiable to the sponsored work. Purdue’s policies follow the Circular and
similarly state that these costs should not be charged as direct costs to federally sponsored
projects (grants).

The Circular also requires universities to provide for independent internal evaluations to
ensure the effort reporting system’s effectiveness and compliance with Federal standards.
As such, “the recipient institution is responsible for ensuring that costs charged to a
sponsored agreement are allowable, allocable, and reasonable under these cost principles”
and “must provide for adequate documentation to support costs charged to sponsored
agreements.”

Consistent with the Circular A-21 requirement for sound business management practices,
OMB Circular A-110, Uniform Administrative Requirements for Grants and Agreements
with Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations,
requires entities receiving Federal awards to establish and maintain internal controls that
are designed to reasonably assure compliance with Federal laws, regulations, and
program compliance.

However, the audit disclosed that incorrect charges were made to NSF grants for proposal
writing and graduate teaching time and effort. The sample of 30 employees disclosed 5
instances of mischarges that resulted in $12,630 of questioned costs for salaries and
overhead costs charged to NSF grants. The risk of these control weaknesses extending to
the remaining $15 million in labor charges to NSF awards, as well as the labor portion of
the other $159 million of Federal awards is likely.

Salary Charges to NSF for Proposal Writing and Teaching Activities

Our audit disclosed instances of PIs charging proposal writing and graduate students
charging teaching activities as direct costs to NSF grants contrary to OMB Circular A-21
and Purdue’s own policies. Specifically,

   •   Three of nine PIs in our sample incorrectly charged their proposal writing
       activities as direct costs to NSF grants. As noted, proposal preparation is
       generally considered an indirect cost activity and not allowed to be charged


                                             5
        directly to NSF under both OMB and Purdue policies. As a result, NSF was
        incorrectly charged $5,279 in salary costs and $2,672 in related overhead costs.
        When we brought these charges to Purdue’s attention, they reversed $4,058 in
        salary costs and $2,061 in related overhead. The remainder of the questioned
        costs ($1,221 in salary and $611 in overhead charges) could not be reversed
        because the award was closed.

    •   In addition, we found that teaching activities performed by two of the 12 graduate
        students in our sample were improperly included as a direct cost to NSF grants.
        These incorrect charges amounted to about 20 percent of the graduate students’
        effort during a four-month period. Teaching activities do not directly benefit the
        NSF and accordingly should be charged to non-sponsored university activities.
        As a result, NSF was overcharged $3,073 in salaries and $1,606 in related
        overhead costs. Purdue reversed the teaching charges from NSF’s grants during
        the audit.

One reason for the mischarges appears to be inadequate training of PIs in regards to
proposal writing and teaching activities. In fact, during the audit, we learned that PIs
were not required to periodically attend effort reporting training, even though Purdue
regularly conducted training on its effort reporting policies and procedures. One PI, with
questioned charges, told us he had not attended effort reporting training. Thus, the
individuals with first hand knowledge of the labor effort expended on the grants likely
have not received the training necessary to assure a reliable effort reports. Purdue stated
that business office staff received training and they were expected to provide this training
in one-on-one sessions with PIs and other individuals involved in effort reporting.
However, they agreed there was no documentation to support whether all applicable
personnel received this training.

In addition, mischarges may have gone undetected because Purdue did not have policies
and procedures in place to provide oversight through a periodic independent internal
evaluation of the effort reporting system. Purdue stated it had not conducted a
comprehensive evaluation because University officials believed they met the A-21
requirement on the basis of a combination of their annual OMB Circular A-133 audit1
and their Costing Office’s role in monitoring the effort reporting certification process.
However, we discussed the A-133 audit with the auditors and reviewed their working
papers and found that the audit was not, nor was it intended to be, a comprehensive
review of the effort reporting system. While the A-133 audit procedures covered some
aspects of effort reporting, such as test for timeliness of effort reports and review of
salaries and wages for reasonableness, the audit was not designed to detect proposal
writing, teaching, or other unallowable activity that may have been charged as direct
costs to Federal awards. Further, the Costing Office did not conduct comprehensive

1
 Under the Single Audit Act of 1984 (Public Law 98-502) as amended in 1996 (Public Law 104-156), non-
Federal entities that expend $500,000 or more a year in Federal awards are required to have an
organization-wide audit that includes the non-Federal entity’s financial statements and compliance with
Federal award requirements. The OMB Circular A-133 established uniform requirements among Federal
agencies for audits of States, Local Governments, and Non-Profit Organizations.


                                                  6
evaluations of effort reports. Moreover, because the Costing Office reports to the
University Comptroller, we do not consider its role to be independent of the effort
reporting management chain.

Recommendations
We recommend that the NSF Director of the Division of Grants and Agreements and the
Director of the Division of Institution and Award Support, coordinate with the cognizant
audit agency, as needed, to implement the following recommendations:

1.     Work with Purdue officials to ensure its existing labor effort training program
       addresses Federal and Purdue requirements, is kept up to date, and is taken by all
       officials involved in the effort reporting process on a periodic basis. Such training
       should include a thorough discussion of effort reporting certification
       responsibilities and requirements.

       Purdue Response to 1.

       Purdue provides effort reporting training to its business office staff at the end of
       each reporting period with the expectation that the staff members provide
       guidance and assistance to PIs on their effort reporting requirements and
       responsibilities. The university finds this practice to be most effective training
       tool. Accordingly, the University will continue with the established practice, but
       will include additional steps for the business office staff to emphasize issues
       related to proposal writing and graduate student teaching efforts during their one-
       on-one sessions with PIs.

       Auditor’s Comments

       Purdue’s proposed actions met the intent of the recommendation. However, we
       emphasize that any training should include a direct communication to PIs that
       proposal writing and graduate students teaching activities must not be charged as
       direct costs to NSF awards. Also, NSF should verify that the University has
       implemented the proposed changes before resolving the recommendation.

2.     Establish a periodic independent evaluation of the effort reporting system to
       provide additional oversight over sponsored project charging practices. Such a
       requirement should identify the specific organization responsible for performing
       the evaluation and how often such an evaluation should be conducted.

       Purdue Response to 2.

       The University’s Internal Audit Department conducts regular reviews of the
       organization’s policies and business practices to assure compliance with
       regulatory requirements. The annual work plan of the Internal Audit Department
       is prepared based on risk analysis. During the preparation of the annual work
       plans, the labor effort reporting system will be included in the risk analysis. In


                                            7
       addition, SPS has created a new staff position with duties which include
       monitoring of the effort reporting system for compliance.

       Auditor’s Comments to 2.

       Purdue’s proposed action met the intent of the recommendation. However, NSF
       should verify that the university has implemented the proposed changes before
       resolving the recommendation.

3.     Resolve the $1,831 balance of total questioned costs for overcharges resulting
       from three PIs writing proposals and charging this effort as a direct cost to NSF
       awards ($1,221 in salary costs and $611 in overhead costs).

       Purdue Response

       Purdue concurs with the questioned costs and is willing to refund the amount
       upon instructions from NSF.

       Auditor’s Comments

       Purdue’s action is fully responsive to the audit recommendation. During the audit
       resolution process, NSF should provide guidance on disposition of the matter to
       Purdue.



2. Additional Concerns for the New On-line System

Purdue implemented Systems, Applications, and Products (SAP), a new online software
system for financial and human resources purposes effective in February 2007 and July
2007 respectively. We reviewed SAP to ensure the certification processes established by
the University in the old Legacy system would carry through to the new system. During
this review we noted an area of concern that Purdue should be aware of and take actions
to correct.

Written Policies for New Effort Reporting System

Even though we identified some timeliness issues, we consider Purdue’s certification
process to be one of the better we have audited to date. Although our audit disclosed that
10 of 103 Personnel Activity Reports (PARs) tested were not certified within the
University’s established timeframes, the majority of the late certifications occurred
during the summer of 2006, and since that time Purdue improved. In fact, there was only
one late PAR in the Summer 2007, and that was only one day late. The new SAP’s
capability enables Purdue to track which PARs have been returned and which ones are
outstanding. In combination with the existing controls, this new capability should further
strengthen Purdue’s effort certification process. However, we noted during our fieldwork



                                            8
visit that Purdue had not yet developed written policies and procedures to ensure that its
new capability would be effectively used to improve timeliness of effort reports.

Without written policies and procedures there is increased risk of employees’ incorrectly
reporting their labor effort and effort reports may be less reliable in supporting salary
charges to NSF awards.


Recommendation
We recommend that the NSF Director of the Division of Grants and Agreements and the
Director of the Division of Institution and Award Support coordinate with the cognizant
audit agency, as needed, to implement the following recommendation:

1.     Work with Purdue officials to develop written policies and procedures for the
       continued timely completion of PARs and changes resulting for its new reporting
       process.

Purdue Response

An effort reporting policies and related procedures have been prepared and is pending
approval by Purdue management.


Auditor’s Comments

Purdue’s action is responsive to the audit recommendation. During the audit resolution
process, the University should provide a copy of the new policy to NSF.




                                            9
                                                                                                         Appendix A




   U N I V E R S I T Y
                                                              Sponsored Program Services

                                                 July 22,2009



BY FACSIMILE TRANSMISSION
Mr. Michael R. Kuklok
Senior Audit Manager
National Science Foundation
4201 Wilson Boulevard
Arlington, Virginia 22230

Dear Mr. Kuklok,


The draft audit report reflects a labor effort system at Purdue University that is working well. Our new
effort reporting system was reviewed and reported to include enhancements which improved the
timeliness of effort certifications. Our faculty demonstrated during the interviews that they were
knowledgeable of their responsibilities in certifying effort, evidenced by an error rate of less than % of
1% of the effort reports audited (5 of 103 effort reports contained errors). This further reflects that our
methods of informing them of their responsibilities in effort reporting are effective. Additional evidence
that the system is working well was the minimal amount of salary disallowances discovered during the
audit. Those disallowances represented less than 1% of the sample reviewed and were determined to not
be material for the sample.

We wish to thank the NSF Office of Inspector General for the manner in which this audit was conducted.
David, Kwame and everyone we interacted with were very professional in their conduct and style in
dealing with audit matters. We recognize that there is always room for improvement and appreciate the
recommendations to enhance our effort reporting system. Following are responses to each of those
recommendations.

    1. Internal Controls over Purdue University's Labor Effort Charging Can be Strengthened:

    We recommend that the NSF Director of the Division of Grants and Agreements and the
    Director of the Division of Institutional and Award Support, coordinate with the cognizant
    audit agency, as needed, to implement the following recommendations:

Recommendation 1.

                             Hovde Hall of Administration   Room 328 610 Purdue Mall West Lafayette, IN 47907-2040
                                                                      (765) 494-1063 Telephone (765) 496-2871 Fax
Work with Purdue ofjcials to ensure its existing labor effort training program addresses Federal and
Purdue requirements, is kept up to date, and is taken by all ofJicials involved in the effort reporting
process on aperiodic basis. Such training should include a thorough discussion of effort reporting
certlJications responsibilities and requirements.

Purdue Response

The University has utilized the business offices to review with faculty their effort reporting
responsibilities. Business office staff attend training at the end of each semester in order to obtain their
department's effort reports. Included in that training is the expectation a business office staff member
discuss with each PI the effort reporting process and requirements. We have found this approach of
timely training most effective for the faculty. These discussions occur both in person and through various
communications media and offer a dialogue regarding effort reporting requirements rather than a formal
training experience. The University will take additional steps with principal investigators to address
particular points of emphasis regarding proposal writing and teaching effort of graduate students to
further enhance the current educational processes.

Recommendation 2.

Establish aperiodic independent evaluation of the effort reporting system to provide additional oversight
over sponsoredproject chargingpractices. Such a requirement should identzfy the speclJic organization
responsible for performing the evaluation and how often the evaluation should be conducted.

Purdue Response

OMB Circular A-2 1 states that "The system will provide for independent internal evaluations to ensure
the system's effectiveness and compliance with the above standards". The annual testing completed as
part of the A-133 audit includes a review of the effort reporting system. The A-133 audit does provide
external auditors the opportunity to independently review our effort reporting policies and procedures if
they so choose. Purdue University's Department of Internal Audit provides regular reviews of the
organizations policies and business procedures to assure compliance with federal, state, and institutional
requirements. An annual work plan is prepared based on a risk analysis. A review of the labor effort
system will be considered in that risk analysis in the future. In addition, Sponsored Program Services has
created a new position to monitor certain compliance requirements. Regular spot checks of the effort
reporting system is included in the responsibilities for that position.

Recommendation 3.

Resolve the $1,831 balance of total question costs for overcharges resultingfiom three PIS writing
proposals and charging this effort as a direct cost to NSF awards ($1,221 in salary costs and $611 in
overhead costs).

Purdue Response

The University is prepared to refund these questioned costs, but will wait for instructions from the
Division of Grants and Agreements since the project involved is financially closed in the NSF system.
